            OFFICE OF
     THE INSPECTOR GENERAL
SOCIAL SECURITY ADMINISTRATION

THE SOCIAL SECURITY ADMINISTRATION’S
     STRATEGY FOR REDUCING THE
       INITIAL CLAIMS BACKLOG

       June 2011   A-07-10-10162




EVALUATION
  REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      June 8, 2011                                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Strategy for Reducing the Initial Claims Backlog
           (A-07-10-10162)


           OBJECTIVE
           The objective of our review was to evaluate the actions the Social Security
           Administration (SSA) had taken or planned to take to reduce its initial disability claims
           backlog to a pending level of 525,000 by Fiscal Year (FY) 2014. 1

           BACKGROUND
           SSA provides Disability Insurance (DI) benefits and Supplemental Security Income
           (SSI) payments to eligible individuals under Titles II and XVI of the Social Security Act. 2
           To receive benefits under either program, an individual must first file an application with
           SSA. Once an application is filed, an SSA field office determines whether the applicant
           meets the non-disability criteria for benefits.3 If the non-disability criteria are met, the
           field office generally forwards the claim to the disability determination services (DDS) in
           the State or other office with jurisdiction to make a disability determination. 4 DDSs are

           1
            SSA determined slightly more than 525,000 pending initial disability claims is the level of work needed to
           keep cases moving through the disability claims process assuming a receipt level of 2.7 million initial
           disability claims and an average processing time of 70 days. SSA projects initial claims receipts will fall to
           more than 2.7 million in FY 2014.
           2
               Social Security Act §§ 201 et seq. and 1601 et seq., 42 U.S.C. §§ 401 et seq. and 1381 et seq.
           3
             For DI benefits, the non-disability criteria include such factors as having sufficient earnings to acquire
           insured status. 20 C.F.R. §§ 404.130 through 404.133 and 20 C.F.R. § 404.315. For SSI payments, the
           non-disability criteria include such factors as citizenship, income, and resources. 20 C.F.R. § 416.202
           and 20 C.F.R. §§ 416.1100 through 416.1266.
           4
             At the DDS, a disability examiner, using SSA’s regulations, policies, and procedures, obtains the
           relevant medical evidence. The examiner then evaluates the case and determines whether the claimant
           is disabled under the Agency’s criteria. As needed, the disability examiner will consult with a physician
           and/or psychologist. Social Security Act §§ 221(a)(1) and 1633(a), 42 U.S.C. §§ 421(a)(1) and 1383b(a).
           See also 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 - The Commissioner

located in each of the 50 States plus the District of Columbia and Puerto Rico. In
addition to DDSs, SSA has Federal units that make disability determinations. The
Federal units are located in each of SSA’s 10 regions with 2 additional units in
Baltimore, Maryland.

In FY 2008, SSA began experiencing a significant increase in initial disability claim
applications due to the economy and rise in unemployment. The rate of applications
continued to increase through FY 2010—increasing by about 24 percent since FY 2008
(see Table 1). Although the Agency processed 20 percent more initial disability claims
in FY 2010 than in FY 2008, the growth in new claims outpaced SSA’s ability to keep up
with the new workload. By the end of FY 2010, the number of initial cases pending at
SSA had grown to over 840,000—about 49 percent higher than at the end of FY 2008.

                                              Table 1
                        Initial Disability Claims Receipts, Clearances,
                           and Pending for FYs 2008 Through 2010
                      Fiscal Year        2008          2009       2010
                      Receipts       2,605,362     3,024,415 3,224,668
                      Clearances     2,630,312     2,812,915 3,161,314
                      Pending           565,284       779,854    842,192


SSA’s goal is to reduce pending initial disability claims to 525,000 by FY 2014. To
accomplish this goal, in November 2010, SSA released its Strategy to Address
Increasing Initial Disability Claims Receipts (Strategy). 5 This Strategy consists of four
objectives:

      1. increase staff in DDS and Federal processing components,
      2. improve efficiency through automation,
      3. expand the use of screening tools to assist in identifying claims likely to be
         allowed, and
      4. refine policies and business processes to expedite case processing.




5
    See Appendix D for SSA’s Strategy.
Page 3 - The Commissioner

RESULTS OF REVIEW
SSA had already taken actions to reduce its initial disability claims backlog—primarily
by hiring additional staff using both annual appropriations and funding provided under
the American Recovery and Reinvestment Act of 2009 (ARRA). 6 In addition, the
Strategy outlines additional actions SSA has taken or plans to take to reduce initial
disability claims to a pending level of 525,000 by FY 2014. Based on SSA’s projections
for receipts, work years, and productivity, it appears SSA will meet its goal. However,
achieving this goal is dependent upon SSA receiving funding that will enable it to
achieve the projections for work years and productivity.

According to SSA, it developed the Strategy mindful of the effects on other parts of the
Agency and on other workloads. However, based on our review, we do not believe the
Strategy is transparent regarding how SSA’s continuing disability review (CDR) and
reconsideration workloads will be affected by SSA’s actions to achieve its goal for initial
disability claims pending. Given the limited information in the Strategy on the CDR and
reconsideration workloads, we have concerns about whether SSA took into account its
obligations to adequately balance its resources among the initial disability claims
workload and these other workloads.

ACTIONS TO ADDRESS INCREASING INITIAL DISABILITY CLAIMS

SSA had taken or was taking several actions to address each of the four objectives in
its Strategy.

Objective 1: Increase Staffing in DDS and Federal Processing Components

SSA increased DDS staff above attrition by 1,390 employees in FY 2009 and
1,256 employees in FY 2010. 7 In addition, during FY 2010, SSA established Extended
Service Teams (EST) at four DDSs—Arkansas, Mississippi, Virginia, and Oklahoma.
SSA hired 333 employees at the ESTs who will assist DDSs nationwide in processing
disability claims. 8 SSA also hired 237 employees at its existing Federal disability



6
 Pub. L. No. 111-5, Division A, Title VIII, 123 Stat. 115, 185 - 186 (2009). ARRA provided SSA with an
extra $500 million in addition to the regular annual appropriations for the last 2 years for processing
disability and retirement workloads. Of this, $91.4 million was allocated for labor costs of DDS employees
and additional overtime.
7
 SSA’s Strategy stated SSA added more than 2,900 DDS employees in FYs 2009 and 2010 (see
Appendix D, page D-4). However, based on comments received from SSA officials on March 16, 2011,
we updated our report to reflect the most current staffing levels.
8
  In FY 2010, ESTs processed 22,236 initial disability claims. SSA’s Strategy stated SSA hired
280 employees at the ESTs—100 employees in Arkansas, 50 employees in Mississippi, 80 employees in
Virginia, and 50 employees in Oklahoma (see Appendix D, page D-4). However, based on comments
received from SSA officials on March 16, 2011, we updated our report to reflect the most current number.
Page 4 - The Commissioner

processing units who provide case processing assistance to DDSs most adversely
affected by increasing initial disability claim receipts.9

Objective 2: Improve Efficiency Through Automation

SSA plans to become more efficient by automating and incorporating new technology
into its business processes. In part, SSA plans to

•     continue enhancing all aspects of the disability Internet claim application, making it
      easier for the public to submit online disability claims; 10
•     increase the receipt of electronic medical records through Health Information
      Technology; and
•     expand the use of the Electronic Claims Analysis Tool (eCAT) to all DDSs to assist
      disability examiners in documenting, analyzing, and completing disability claims. 11

Objective 3: Expand the Use of Screening Tools to Assist in Identifying Likely
Allowances

SSA expanded the scope of the Quick Disability Determination (QDD) and
Compassionate Allowance initiatives to expedite favorable disability determinations for
more claimants with severe disabilities. 12 SSA is also assessing predictive modeling
tools similar to the QDD predictive model that would provide for quicker determinations
and therefore improved service.

Objective 4: Refine Policies and Business Processes to Expedite Case
Processing

SSA plans to improve and streamline policies, procedures, and staff instructions,
allowing employees to process work more efficiently without sacrificing accuracy. For
example, SSA is reviewing best practices and business processes identified by its top
performing DDSs and will share with the rest of the DDSs those initiatives that have
improved SSA’s ability to address increasing workloads.




9
    In FY 2010, Federal processing components processed 65,557 initial claims.
10
     SSA’s goal is to have 25 percent of disability claims filed online by FY 2012.
11
     According to SSA, national rollout of eCAT will be completed by May 2, 2011.
12
  According to SSA officials, this objective of the Strategy also includes expansion of the Disability
Examiner (DE) authority. This authority allows a DE to make a determination on certain claims without
the approval of a medical or psychological consultant, reducing the time it takes to process decisions.
SSA anticipates the use of the new DE authority will result in expeditious determinations, leaving medical
consultants time to process complex determinations. Implementation of this initiative began on
November 12, 2010 and finished on January 31, 2011.
Page 5 - The Commissioner

SSA’S ABILITY TO REDUCE INITIAL DISABILITY CLAIMS PENDING LEVELS

Based on SSA’s projections for initial claims receipts, work years, and productivity, it
appears that it will meet the goal of 525,000 initial disability claims pending by FY 2014,
if not sooner (see Table 2). 13 In fact, depending on how SSA balances its various
workloads, it could meet its goal in FY 2013. 14 However, SSA’s ability to reduce initial
disability claims pending to the 525,000 goal is dependent on SSA receiving funding
that will enable it to achieve projections for work years and productivity.

                                            Table 2
                Initial Disability Claims Workload Based on SSA Projections
               Fiscal Year                    2011       2012       2013
                                  15
               DDS Work Years                  16,827     16,828     16,828
               DDS PPWY                           275        279         279
               Opening Pending 16             842,192   708,592     632,792
               Receipts 17                  3,275,400 3,192,200   2,887,400
               Clearances 18                3,409,000 3,268,000   3,268,000
                                 19
               Closing Pending                708,592   632,792     252,192



13
   SSA measures productivity in terms of productivity per work year (PPWY). PPWY quantifies the
average annual number of determinations by each employee in the DDSs. A work year represents both
direct and indirect time, including overhead (such as time spent on training, travel, leave, and holidays).
14
   The timeframe in which SSA meets its goal is dependent on how it balances workloads. The Strategy
is not transparent about how SSA plans to balance staff time between processing initial disability claims
and other workloads, which predominantly includes CDRs and reconsiderations. Therefore, for our
analysis, we considered SSA’s FY 2011 and 2012 projections for the other workloads and assumed the
FY 2012 projections would remain consistent through FY 2014. As such, it may take SSA longer to
achieve its goal depending on how SSA balances its workloads.
15
   The FY 2011 and 2012 projected DDS work years and PPWY were based on the President’s FY 2012
budget request. According to SSA officials, the FY 2012 work year and productivity levels are expected
to remain consistent through FY 2014. Based on Office of Management and Budget direction, SSA would
not release FY 2013 and 2014 projections because they are pre-decisional.
16
  The FY 2011 opening pending is equal to the FY 2010 year-end pending level, as reported on SSA’s
Office of Disability Determinations’ Initial Workload Trends report. The FY 2012 and FY 2013 opening
pending levels equal the closing pending levels of the prior FYs.
17
     FY 2011 through 2013 projected receipts were provided by SSA’s Office of Budget.
18
   The FY 2011 and 2012 projected initial disability claim clearances were based on the President’s
FY 2012 budget request. The FY 2013 initial disability claim clearances were based on the FY 2012
projection. Since SSA assumes FY 2012 work years and PPWY will remain consistent through FY 2014,
total clearances, including initial disability claims and other workloads, should also remain consistent.
Initial disability claim clearances could change if SSA changes the balance of its workload.
19
  The FY 2011 through 2013 closing pending levels were calculated by adding receipts to opening
pending then subtracting clearances.
Page 6 - The Commissioner

                SSA’s Strategy does not provide projected or estimated numbers of
     Receipts   initial disability claim receipts. The Strategy simply states that as
                receipts fluctuate, SSA will adjust the Strategy accordingly. We asked
SSA to provide its projected initial disability claim receipts for FYs 2011 through 2014.
SSA is projecting initial disability claim receipts will peak at about 3.3 million in FY 2011
then decline through FY 2014 to about 2.7 million (see Chart 1).




However, SSA’s ability to achieve its goal will be at risk if the Agency receives more
initial disability claims receipts each year through FY 2014 than projected. For example,
receipts will need to stay within 7 percent of the annual projections for SSA to meet its
goal of 525,000 pending claims, if there are no changes to projected DDS work years or
PPWY (see Appendix C, Table C-1).

                  The first objective of SSA’s Strategy centers on hiring staff to process
     Work Years   disability claims. However, SSA’s Strategy does not specifically
                  identify the number of work years planned or needed in FYs 2011
through 2014 to achieve the goal of reducing initial disability claims pending by
FY 2014. We asked SSA to provide its projected work years for FYs 2011 through
2014. SSA is projecting 16,827 work years in FY 2011 and 16,828 work years in
FY 2012. These projections are based on SSA receiving better than one-for-one
replacement hiring in the DDSs. According to SSA officials, the FY 2012 work year
projection is expected to remain consistent through FY 2014.

However, in FY 2011, hiring is already a concern. With a FY 2011 budget nearly
$1 billion below the amount requested, Agency components and State DDSs are under
a full hiring freeze. 20 According to SSA’s Commissioner, a hiring freeze for the
remainder of FY 2011 would result in a loss of about 2,500 SSA Federal employees and
1,000 DDS employees, causing backlogs to skyrocket. 21

20
     According to SSA’s Office of Personnel.
21
  Labor-HHS Subcommittee hearing on the SSA Budget Before the Subcomm. on Labor, Health and
                                                                                       th
Human Services, Education, and Related Agencies, of the S. Comm. on Appropriations, 112 Cong.
(2011) (statement of Michael J. Astrue, Commissioner of Social Security).
Page 7 - The Commissioner

Without the ability to replace employees lost through attrition, SSA will not be able to
maintain the projected level of work years through 2014. Therefore, SSA will be in
jeopardy of not achieving its goal. For example, SSA will need to stay within 9 percent
of the FY 2011 projection for DDS work years and within 6 percent of the FY 2012
projection during FYs 2012 through 2014 to meet its goal of 525,000 pending claims, if
there are no changes to projected receipts or DDS PPWYs (see Appendix C,
Table C-2).

                  The last three objectives in SSA’s Strategy center on improving
     Productivity productivity using automation, screening tools, and expedited case
                  processing. However, SSA’s Strategy does not specifically articulate
how these objectives will effect productivity. In addition, the Strategy does not include
the specific productivity level needed to achieve the goal of reducing initial disability
claims pending by FY 2014. SSA is projecting DDS PPWY of 275 in FY 2011 and
279 in FY 2012, which SSA officials expect to remain consistent through FY 2014.

However, the FY 2011 and 2012 projected DDS productivity levels are higher than any
PPWY level achieved in recent years, and the Strategy does not specifically address
how the Agency will achieve this PPWY level. 22 Based on our calculations, DDS PPWY
will need to stay within 9 percent of the FY 2011 projection and 6 percent of the
FY 2012 projection during FYs 2012 through 2014 for SSA to meet its goal of
525,000 pending claims, if there are no changes to projected receipts or DDS work
years (see Appendix C, Table C-2).

OTHER DDS WORKLOADS

As we have already pointed out, SSA’s Strategy does not provide key components,
such as the projected numbers for receipts, work years, and productivity, needed to
achieve the pending level goal by FY 2014. In addition, the Strategy is not transparent
about how the CDR and reconsideration workloads will be affected by SSA’s actions to
achieve its goal for initial disability claims pending. 23

The Strategy states that SSA will continue monitoring the progress of its important
program integrity workloads, specifically CDRs. According to the Strategy, as pending
initial claims decrease, the additional staff SSA hired will balance its time between initial




22
  DDS PPWY has ranged from a low of 241 in FY 2006 to a high of 274 in FY 2009. As of
December 2010, DDS PPWY was 265.
23
  According to SSA officials, by expanding initial claims processing capacity to ESTs and Federal
disability processing units, the DDSs were able to focus on other workloads. For example, as ESTs
assisted DDSs with initial claims, the DDSs focused resources on the reconsideration workloads.
Page 8 - The Commissioner

disability claims and CDRs. 24 Given the limited information in the Strategy, we have
concerns with whether SSA can adequately balance its resources between the initial
disability claims and CDR backlogs.

Since FY 2007, SSA has had a backlog of over 1 million full medical CDRs. In
FY 2009, that backlog grew to approximately 1.5 million. SSA plans to perform about
360,000 full medical CDRs in FY 2011 and 592,000 full medical CDRs in FY 2012.
While this is an increase over the FY 2010 level, a considerable CDR backlog will
remain. 25 Therefore, SSA will continue to pay billions of dollars in benefits to individuals
who would potentially no longer be entitled. 26 Further, SSA has not developed an
official strategy for eliminating this backlog.

Conversely, SSA was proactive in developing a Strategy to eliminate the much smaller
backlog of approximately 317,000 initial disability claims by FY 2014. 27 However, the
Strategy does not articulate the degree to which claimants were affected by this
backlog, such as increased processing times. In addition, the Strategy does not
articulate why SSA needs to eliminate the backlog by FY 2014.

As SSA processes more initial disability claims, it expects to receive more requests for
reconsideration, hearings, and appeals. The Strategy briefly addresses the effect
reducing initial disability claims pending will have on hearings receipts. 28 However, the
Strategy is not transparent regarding the resulting increase in reconsideration receipts
or how SSA plans to balance its resources to ensure a backlog of reconsiderations does
not occur as SSA focuses on reducing its initial disability claims pending. Without this
critical information, the Strategy is not transparent regarding how SSA will balance its
resources between initial claims, reconsiderations, and CDR workloads.




24
  According to SSA officials, new hires can only process initial disability claims after the initial training
phase. Additional years of experience and advanced training are required to process other types of
disability workloads.
25
     In FY 2010, SSA conducted over 322,000 CDRs.
26
  OIG reviewed SSA’s CDR backlog and found that SSA has made, and will continue to make, benefit
payments to individuals who would no longer be eligible if the backlog of 1.5 million full medical CDRs
had been conducted when they became due. SSA OIG, Full Medical Continuing Disability Reviews
(A-07-09-29147), March 2010, p. 2.
27
   At the end of FY 2010, SSA had over 842,000 initial disability claims pending. However, SSA’s goal is
to have 525,000 initial disability claims pending. Therefore, SSA has a backlog of about 317,000 claims.
28
  SSA’s Strategy states that additional hiring will be required to ensure its hearings backlog reduction
plan continues to be successful. In addition, SSA included hearing office representatives in the
development of the Strategy and updated the budget and hearing backlog reduction plans accordingly.
Page 9 - The Commissioner

CONCLUSIONS AND RECOMMENDATION
Based on SSA’s projections for initial disability claims receipts, work years, and
productivity, it appears SSA will be able to reduce pending initial disability claims to
525,000 by FY 2014. However, achieving this goal is dependent on SSA receiving
funding that will enable it to achieve the projections for work years and productivity.

SSA’s funding for FY 2011 is already of concern. In fact, SSA is operating with an
approved FY 2011 budget nearly $1 billion less than requested. As a result, all Agency
components and State DDSs are under a full hiring freeze. According to the
Commissioner, the hiring freeze will result in a loss of thousands of employees and
skyrocketing backlogs. 29

In future years, SSA could receive less funding than needed to achieve projections for
work years and productivity. If this occurs, SSA may not have budgeted funds to allow
it to achieve its initial disability claims backlog goal by FY 2014. According to SSA
officials, the Strategy is reassessed each year based on receipt projections and the
necessary processing levels needed to reach the goal. Therefore, we recommend that
as the Strategy is reassessed each year, SSA be transparent as to how workload
decisions are developed, including how budgetary constraints affect initial claim, CDR,
and reconsideration workloads.

AGENCY COMMENTS
SSA disagreed with our recommendation. SSA stated that it did not discuss CDR
workloads at length in the Strategy because it focused on initial claims. SSA further
stated that it publishes reports and other documents that discuss program integrity
initiatives. See Appendix E for the full text of SSA’s comments.

OIG RESPONSE
We are aware that SSA publishes various reports and documents related to its program
integrity activities. We also recognize that SSA’s Strategy briefly acknowledges that
any additional staff hired will balance time between processing initial disability claims
and CDRs. However, given the current budget and hiring situation, we continue to have
concerns with how staff will balance time between the initial claim, CDR, and
reconsideration workloads and how current and future budgetary constraints will affect
these workloads. Therefore, we continue to support our recommendation that SSA
outline this information in its annual reassessment of the Strategy.




                                           Patrick P. O’Carroll, Jr.

29
     Supra note 21.
                                         Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – The Social Security Administration’s Ability to Reduce Initial Disability
             Claims Pending Levels

APPENDIX D – Strategy to Address Increasing Initial Disability Claim Receipts

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                  Appendix A

Acronyms
ARRA          American Recovery and Reinvestment Act of 2009
CDR           Continuing Disability Review
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DE            Disability Examiner
DI            Disability Insurance
eCAT          Electronic Claims Analysis Tool
EST           Extended Service Team
FY            Fiscal Year
PPWY          Productivity Per Work Year
Pub. L. No.   Public Law Number
QDD           Quick Disability Determination
SSA           Social Security Administration
SSI           Supplemental Security Income
Strategy      Strategy to Address Increasing Initial Disability Claims Receipts
U.S.C.        United States Code
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, policies, and procedures.

•   Researched prior reports by the Office of the Inspector General and the Government
    Accountability Office.

•   Reviewed SSA’s Strategy to Address Increasing Initial Disability Claim Receipts
    (issued November 2010).

•   Interviewed SSA officials in the Offices of Budget and Disability Determinations.

•   Gathered and reviewed data related to the projected disability workloads in Fiscal
    Years 2011 and 2012.

•   Performed analysis using SSA’s projected numbers to determine whether SSA
    would meet the initial disability claims pending goal.

We performed our review between April and December 2010 in Kansas City, Missouri.
The entity reviewed was SSA’s Office of Disability Determinations under the Office of
the Deputy Commissioner for Operations. We determined that the data used in this
report were sufficiently reliable given our review objective and intended use of the data.
We conducted our review in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.
                                                                                      Appendix C

The Social Security Administration’s Ability to
Reduce Initial Disability Claims Pending Levels
The Social Security Administration (SSA) projects initial disability claim receipts will
peak at about 3.3 million in Fiscal Year (FY) 2011 then decline through FY 2014 (see
Chart 1 on Page 6 of the report). However, if receipts are 7 percent more than
projected, and there are no changes to projected disability determination services
(DDS) work years or productivity per work year (PPWY), the pending level at the end of
FY 2014 will be over 534,000 claims (see Table C-1). 1

                                         Table C-1
     Effect of Initial Disability Claims Receipts 7 Percent Higher Than Projected
    Fiscal Year                          2011       2012        2013       2014
    DDS Work Years 2                           16,827           16,828         16,828           16,828
    DDS PPWY                                      275              279            279              279
    Opening Pending 3                         842,192          937,870      1,085,524          907,042
    Receipts 4                              3,504,678        3,415,654      3,089,518        2,895,313
    Clearances 5                            3,409,000        3,268,000      3,268,000        3,268,000
    Closing Pending 6                         937,870        1,085,524        907,042          534,355

1
  SSA measures productivity in terms of PPWY. PPWY quantifies the average annual number of
determinations by each employee in the DDSs. A work year represents both direct and indirect time,
including overhead (such as time spent on training, travel, leave, and holidays).
2
  The FY 2011 and 2012 projected DDS work years and PPWY were based on the President’s FY 2012
budget request. According to SSA officials, the FY 2012 work year and productivity levels are expected
to remain consistent through FY 2014. Based on Office of Management and Budget direction, SSA would
not release FY 2013 and 2014 projections because they are pre-decisional.
3
 The FY 2011 opening pending is equal to the FY 2010 year-end pending level, as reported on SSA’s
Office of Disability Determinations’ Initial Workload Trends report. The FY 2012 through 2014 opening
pending levels equal the closing pending levels of the prior FYs.
4
  For this analysis, the number of receipts each FY is equal to 107 percent of SSA’s projected receipts.
We determined an increase of 7 percent in receipts would make SSA unable to achieve its goal. To do
so, we identified the total number of receipts that would result in a FY 2014 pending level above
525,000 initial disability claims. We subtracted this receipt level from the total receipts projected by SSA
for FYs 2011 through 2014. Then, we divided the additional number of receipts by SSA’s projections to
arrive at the percentage of additional receipts that would make SSA unable to achieve its goal.
5
  The FY 2011 and 2012 projected initial disability claim clearances were based on the President’s
FY 2012 budget request. Since SSA assumes FY 2012 work years and PPWY will remain consistent
through FY 2014, total clearances, including initial disability claims and other workloads, should also
remain consistent. Initial disability claim clearances could change if SSA changes the mix of its workload.
6
 The FY 2011 through 2014 closing pending levels were calculated by adding receipts to opening
pending then subtracting clearances.


                                                    C-1
SSA projects DDSs will have 16,827 work years and a PPWY of 275 in FY 2011. In
addition, SSA projects 16,828 DDS work years and a PPWY of 279 in FY 2012, which is
expected to remain consistent through FY 2014. Based on these levels, SSA projects it
will process over 3.4 million initial disability claims in FY 2011 and over 3.2 million initial
disability claims each FY through 2014. However, if SSA only processes approximately
3.1 million initial disability claims each FY, SSA will not achieve its goal of 525,000 initial
disability claims pending (see Table C-2).

                                            Table C-2
            Effect of Initial Disability Claim Clearances Lower Than Projected 7
           Fiscal Year                 2011       2012       2013       2014
           Opening Pending            842,192 1,023,319 1,121,246        914,373
                    8
           Receipts                3,275,400 3,192,200 2,887,400       2,705,900
           Clearances9             3,094,273 3,094,273 3,094,273       3,094,273
           Closing Pending         1,023,319 1,121,246      914,373      526,000

A clearance level of 3.1 million claims would occur, in part, if either

•     DDS work years were 15,337 in FY 2011, which is approximately 9 percent lower
      than projected, and 15,824 in FYs 2012 through 2014, which is approximately
      6 percent lower than projected for FY 2012, 10 or
•     DDS productivity was 251 in FY 2011, which is approximately 9 percent lower than
      projected, and 262 in FYs 2012 through 2014, which is approximately 6 percent
      lower than projected for FY 2012. 11,12


7
    All assumptions for this analysis are the same as those in Table C-1 except where noted.
8
    The FY 2011 through 2014 projected receipts were provided by SSA’s Office of Budget.
9
  Based on SSA’s projected numbers of initial disability claim receipts for FYs 2011 through 2014, we
calculated the total number of initial disability claims clearances that would result in a FY 2014 pending
level of 526,000 claims. Then, we divided the number of total clearances by 4 years to arrive at the
number of initial disability claims clearances per year that would make SSA unable to achieve its goal.
10
  We calculated the DDS work year level that would cause SSA to process 3.1 million initial disability
claims. To do so, we took 3,094,273 less the projected number of annual clearances by Federal disability
processing units, as provided by SSA, plus the projected number of other DDS workloads, which we
calculated based on SSA’s projections for DDS work years, PPWY, reconsiderations, and continuing
disability reviews (CDR). We divided the result by 275 for FY 2011 and 279 for FY 2012, SSA’s
projections for DDS PPWY.
11
  We calculated the DDS PPWY level that would cause SSA to process 3.1 million initial disability claims.
To do so, we took 3,094,273 less the projected number of annual clearances by Federal disability
processing units, as provided by SSA, plus the projected number of other DDS workloads, which we
calculated based on SSA’s projections for DDS work years, PPWY, reconsiderations, and CDRs. We
divided the result by 16,827 for FY 2011 and 16,828 for FY 2012, SSA’s projections for DDS work years.
12
  SSA’s clearances would also be affected by changes in work years or PPWY at Federal disability
processing units. However, we did not conduct analysis to identify the effect such changes would have.


                                                    C-2
                                       Appendix D

Strategy to Address Increasing Initial Disability
Claim Receipts
D-1
D-2
D-3
D-4
D-5
D-6
D-7
D-8
D-9
D-10
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:     May 18, 2011                                                               Refer To:   S1J-3

To:       Patrick P. O'Carroll, Jr.
          Inspector General

From:     Dean S. Landis /s/
          Deputy Chief of Staff

Subject   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
          Strategy for Reducing the Initial Claims Backlog” (A-07-10-10162)--INFORMATION


          Thank you for the opportunity to review the subject report. Please see our attached comments.

          Please let me know if we can be of further assistance. Please direct staff inquiries to
          Chris Molander, at extension 57401.

          Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S STRATEGY FOR
REDUCING THE INITIAL CLAIMS BACKLOG” A-07-10-10162

COMMENT

Your objective was to evaluate the actions we are taking to reduce the initial disability claims
pending level to 525,000 by fiscal year (FY) 2014. You concluded we would likely meet our
goal. However, you state that our strategy is not transparent because we do not discuss how our
efforts to process initial claims will affect other workloads such as continuing disability reviews
(CDR) and reconsiderations. We disagree with your observation.

In our “Strategy to Address Increasing Initial Disability Claim Receipts (November 2010),” we
state on page D-8 (see Appendix D of your draft report):

“As we decrease our pending initial claims, the additional staff we are hiring will balance their
time between initial disability claims and our equally important program integrity workload,
continuing disability reviews.”

We do not discuss CDR workloads at length in the Strategy because it focuses on initial claims.
However, we do publish a number of other reports and documents that discuss in detail our
program integrity initiatives, as well as our plans for processing reconsiderations. These include
the President’s Budget request, the Congressional Budget Justification, the Performance and
Accountability Report, the Annual Performance Plan, the Annual Report on Periodic Continuing
Disability Reviews, and the Report on Continuing Disability Reviews Resulting from Work
Activity.

RECOMMENDATION

As the Strategy is reassessed each year, SSA should be transparent as to how workload decisions
are developed, including how budgetary constraints affect initial claim, CDR, and
reconsideration workloads.

Response

We disagree with the conclusion that we are not transparent about how we develop workload
decisions. As noted above, numerous published documents provide varying degrees of detail
about how we make workload decisions.




                                                E-2
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division
   Tonya Eickman, Audit Manager

Acknowledgments

In addition to those named above:

   Karis Crane, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-10-10162.
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
